                                  NATIONAL SCIENCE FOUNDATION
                                         4201 WILSON BOULEVARD
                                        ARLINGTON, VIRGINIA 22230




        OFFICE OF
    INSPECTOR GENERAL




                                                   I.
                                              Introduction
           This case involves [                  ] (the "subject"), an [                     ] in the
    [                      1 at [                      ] (the "institution"). The subject's proposal
    [            ] (the "proposal"), a renewal of NSF award [               , 1, was submitted to the

                                    I
          We received two allegations regarding differences between certain data reported in the
    proposal and results reported by the subject in an earlier article, [


        1, authored by the subject, [                     ] (the "postdoc"), [                       1,
.   [              I, [                  ] (the "second graduate student"), [                         1
    (the "first graduate student"), [        ] (the "undergraduate"), and [                      1 (the
    "article"). The article acknowledges financial support from NSF award [          .         1.

                                                    II.
                                        The Institution's Actions



           On 25 July 1991, we called the institution's designated Authorized Organizational
    Representative and informed him that we had received allegations of n~isconductin science
    regarding one of the institution's faculty. We asked if the institution would prefer for this office
    to defer to them to conduct an inquiry, and investigation if necessary; we also told him that,
    because the allegations involved possible fabrication of research data, the institution should move
    expeditiously to secure the primary data in the subject's laboratory. The institution agreed to
    secure promptly the primary data and initiate an appropriate inquiry.
                                               B.
                                     The Initial "~nauiry"'
       We asked the institution to address two allegations; see Appendix I. We received a letter
from the institution, dated 17 October 1991 (the "letter"), along with a "Report of the
Committee of Inquiry" dated 18 September 1991 (the "report"), a written response by the
subject, and copies of laboratory notebook pages and spectra related to the report. The letter
said:

       "The appropriate university committee has now concluded their inquiry on the
       questions raised in your letter. . . . The inquiry committee reports that there
       exists no evidence of academic misconduct with respect to the allegations stated
       in your letter. We do find however that [the subject] does need to exert more
       diligence in the manner he references his data, particularly when discrepancies
       or errors are being corrected."

        The committee found that there were laboratory records that supported the experimental
results that had been reported in the article. The subject was able to explain why certain
experiments had been repeated, revealing that the results published in the article were in error:

               "In summary, the data are all here that account for the published and
       submitted reports, and the corrections in the literature were undertaken prior to
       receipt of the NSF allegations by [the institution]. The problem of the NSF
       proposal was a sin of omission on [the subjectl's part by not stating that new data
       were employed in the Preliminary Results section; nothing sinister was intended.
       We conclude that there is no substance to the allegations brought against [the
       subject]. "




      'Under NSF's misconduct regulation,

       "An 'inquiry' consists of preliminary information-gathering and preliminary fact-
       finding to determine whether an allegation or apparent instance of misconduct has
       substance. An investigation must be undertaken if the inquiry determines the
       allegation or apparent instance of misconduct has substance. An 'investigation'
       is a formal examination and evaluation of relevant facts to determine whether
       misconduct has taken place or, if misconduct has already been confiied, to
       assess its extent and consequences or determine appropriate action."

45 C.F.R. 5 689.1(c). It is clear that what the institution conducted here was not mere
"preliminary information-gathering and preliminary fact-finding" and in fact amounted to an
investigation.
                                               C.
                                        Unresolved Issues

        NSF' s definition of "misconduct" includes "fabrication, falsification, plagiarism, or other
serious deviation from accepted practices in proposing, carrying out, or reporting results from
activities funded by NSF . . . . " 2 It was clear from the report and its accompanying
documentation that this was not a case of data fabrication or falsification. However, two NSF
experts in the subject's scientific discipline reviewed the documentation, and they questioned
whether some of the quantitative data the subject possessed was of sufficient quality to justify
its reporting in either the article or the proposal.

        Whether a particular scientist's practices constitute "serious deviation from accepted
practices, " under NSF's definition of misconduct in science, is a question that must properly be
addressed by that scientist's community. We therefore wrote to the institution on 29 January
1992 and asked the institution to address eight specific issues concerning the adequacy of the
subject's data; see Appendix 11. Specifically, we asked the institution to advise us whether any
of these issues, in the institution's opinion, constituted "serious deviation from accepted practices
in proposing, carrying out, or reporting results from" research in the relevant scientific
discipline.

                                               D.
                                        Further "Inquirv"

       We received a letter from the institution, dated 19 February 1992 (the "second letter"),
along with a "Second Report of the Committee of Inquiry" dated 18 February 1992, and a
second written response by the subject (the "subject's second response"). In the second letter,
the dean said:

               "In reviewing the matter to greater depth in the areas raised in your most
       recent letter, the [institution's] inquiry committee continues to find that, in our
       judgment, [the subject] had no intent to deceive, falsify, fabricate, or plagiarize
       results, and that there exist verifications that experiments to substantiate the
       results quoted were indeed carried out by [the subject] and the various members
       of his group. Thus, we do not detect anything that is unethical or illegal.

               "Now, we do report that there exist some less than ideal experimental
       observations in that work, and those do raise questions with respect to the validity
       of the data cited in the [article]. . . . It is clear here that, if there had been a
       careful monitoring of the experimental results, there would have resulted
       remeasurements of what are now very clearly questionable results reported in the
       [article].


       245 CFR   8 689.1(a)(l) .
               "Now, the committee does report that there are some less than ideal
       procedures in [the subject] 's laboratory environment and in his style of leadership
       that do require corrective actions, but we consider these to be the responsibility
       of the [institution]. As such, they are being addressed by [the chairperson of the
       subject's department]. In particular, the committee has insisted that a set of
       'good laboratory practices' be developed that [the subject] will be expected to
       review with all students and laboratory personnel henceforth.

               "In closing, the [institution's] inquiry committee finds that there exist
       some irregularities associated with the experimental results being questioned, but
       these do not constitute misconduct as defined by the National Science Foundation.
       ..   s
                11




In the subject's second response, he acknowledged

       "that certain laboratory experiments involving the work in question were
       performed poorly and that experiments should have been repeated when questions
       or deficiencies were either present or suspected. However, I categorically deny
       that I knowingly engaged in any scientific, ethical, or legal misconduct.

               "What I failed to do was to maintain high standards of scientific work and
       reporting. . . . I regret these mistakes and state emphatically that mistakes such
       as these will not occur again.

                "In the future I shall take appropriate precautions in reviewing and
       discussing all the data shown to me by my students and coworkers before I use
       their data in preparing manuscripts for publication and research proposals. I shall
       insist that all research observations are well-documented, that all calculations have
       been verified, that no conclusions are based on any assumptions, that all
       compounds are pure before any characteristics are assigned to them, and that all
       results are properly recorded in laboratory notebooks. Furthermore, I will insist
       that all coauthors carefully examine the data that appear in our drafts of
       publications and research proposals, and verify that the data in the final
       manuscripts and write-ups are the same as those reported in their notebooks.
       However, I realize the ultimate responsibility for the correctness of all data,
       results, and conclusions that I transmit is mine."

                                             111.
                                          Conclusion
        In light of the institution's responses in this matter, we conclude that there is not
sufficient evidence to establish that the subject engaged in misconduct in science under NSF's
regulation. Although we were concerned about some of the research practices documented in
this matter, we accept the institution's judgment that those practices do not constitute "serious
deviation from accepted practices in proposing, carrying out, or reporting results from activities
funded by NSF," under NSF's definition of misconduct in science. We are also reassured by
the subject's response and the preventative actions taken by the subject and the institution, that
the poor research practices that led to these allegations will not be v t e d .




                                                                                 31 March 1992
                                         Allegations
       We asked the institution to address two allegations, as follows?

" 1.   The proposal states on page 6 that [




       "These results appear to be inconsistent. What data supported the report in the article
       of [                                                     1, and what data support the
       different report in the proposal?

"2.    The article reports that [




       "These results appear to be inconsistent. What data supported the report in the article
       of [                                                         ] and what data support
       the different report in the proposal?"




       3Citationsto the scientific literature are omitted. The numerical designations for chemical
structures in the proposal are referred to with a "p" preceding the number, and those in the
article are preceded by an "a".
                                        Additional Issues
       We asked the institution to address eight specific issues concerning the adequacy of the
subject's data, as follows4:

"   1.   On page 4 of his letter, [the subject] explained the article's report of [
                                                                          ] as follows:

                "'Starting from 0.5 g of [ 1, 0.52 g of crude product was obtained.
                From column chromatography, [the first graduate student] isolated 0.32
                g of material, but he had told me, and I have also written down in his
                notebook (in the presence of [the first graduate student and the postdoc]),
                that he had accidently thrown away some fractions from column
                chromatographic separation which was estimated to be about 0.2 g (see
                [XX]-11-108) (since the original weight was 0.52 g, and he had
                concentrated all other fractions from column chromatography except those
                fractions that he had thrown away and found nothing). '

         "It is our understanding that it is typical for some material to be left behind on a
         chromatographic column - particularly when the TLC shows a substantial spot
         remaining at the origin even with a fairly polar solvent, such as [the fxst graduate
         studentl's did.5 Therefore, we do not understand the basis for [the subjectl's
         presumption that the unknown quantity of eluent that was 'lost' contained the full 0.2 g
         difference between what was put onto the column and what came off.

"2.      [The subject] continued:

                "'I was told by [the first graduate student] that the yield was about 85 %
                and this figure was reported. Probably, this number is derived from the
                analysis of the NMR spectrum (NMR [XXI-2-106-1) of the mixture (0.32
                g; [XXI-2-107). The spectrum indicated a 5: 1ratio of the desired product
                [                                         ] (these two were separated and
                identified individually later). '


      4 ~ hindividual
            e          researcher's initials, which precede all notebook, compound, and spectra
references, are replaced by "XX"; the numerical designations for chemical structures in the
proposal are referred to with a "p" preceding the number, and those in the article are preceded
by an "a".

      5"see notebook page [XXI-2-107, middle of the page - ' 100% EA' presumably indicates
the use of pure ethyl acetate: the spots at the far left presumably are a sample of the crude
product that was placed on the column.     l1
       "It is our understanding that a reported yield generally indicates the amount of material
       isolated with a reasonable degree of purity. It appears from [the first graduate studentl's
       notebook that only 0.15 g of [ ] was actually isolated, which is a yield of 30%.6

"3.    In his discussion of [the postdocl's work on page 5 of his letter, [the subject] states that
       the [               1
              " 'is [    ] indicating that [the first graduate studentl's early sample of [
                             ] was impure. '

       "According to [the first graduate student]'s notebook, [       ] was measured on the
       material that had been purified, the NMR spectrum of which seems to indicate that it was
       at least as pure as [the postdoc] 's . ~

"4.    After discussing [the postdocl's work, on pages 5-6 of his letter [the subject] continued:

              "'Looking back at [the first graduate studentl's data, it is apparent that
              0.32 g material is correct. Most likely, the other 0.2 g of [ ] (which as
              explained by [the first graduate student] was lost by accident) was
              insoluble material in CH2C12and stayed undissolved on the top of the
              chromatography column'

       "As we understand it, the material 'lost by accident' had been eluted from the column,
       and therefore must have been soluble in whatever solvent ratio carried the material off
       the column (which is not specified in the notebo~k).~   Was the material lost because it
       was insoluble and stayed at the top of the column, or because it came off the column and
       was thrown away? In light of [the postdocl's findings regarding the low solubility of
       [ 1, how justified was [the subjectl's 'estimate' that the eluent that had been thrown
       away contained 0.2 g of the desired product, as related in (a) above?

"5.    The article stated that 'the syn disposition at [ ] is supported by 'H NMR 2D
       N O S Y and 2D COSY experiments.' Neither your report nor [the subjectl's letter




      '"See notebook page [XXI-2-108 and NMR [XXI-2-106-3."

      7"Seenotebook page [XXI-2-108; compare NMR [XXI-2-106-3with NMR [XXI-5-91-2."

      8"See notebook page [XXI-2-108: 'lost: 0.20 g (accident, throw away some fraction
containing the compound)', and, as quoted above from page 4 of [the subjectl's letter, [the first
graduate student] 'had accidently thrown away some fractions from column chromatographic
separation'. "
       addresses this issue.9
                                                            '
"6.    [The subject] stated on page 6 of his letter that

              "'As discussed in reply to allegation (I), compound [ ] was obtained by
              using [                       1. . . . Since the product, [ 1, was indeed
              ( W r found to be) a mixture of two compounds ([ ] and [ 1, but
              contained greater amounts of [ I), the final product ([ I) had a [
                            ] which was stated in the notebook ([XXI-1-53).'

       "Although it is difficult to discern from the notebooks because none of the students or
       postdocs recorded the source of their starting materials, it appears that purified starting
       materials were used and purified products were obtained in each step.'' Therefore, the
       explanation quoted above for the low rotation obtained for the product the first time -
       before [the subject] was aware of the error in the reported rotation for [ ] - seems
       untenable.

"7.    On page 8 of his letter, [the subject] explained the yield calculation for [ ] as follows:

              "'[   ] (30 mg) was [                  ] and 30 mg . . . of [ 1 was
              obtained. NMR spectrum of this sample ([XXI-1-53-2) indicated a
                                 -
              contamination of 13% of the 30 mg material (about 4 mg) of solvents
              (ethyl acetate, MeOH and small impurity). This was then calculated to
              about 26 mg (93 %) of [ 1. '

       "This calculation does not appear in the notebook. Please address the propriety of this
       method of calculating a yield, particularly a yield to be reported in a journal publication,
       and particularly when the 'contamination' is nothing more than volatile solvents that
       could be readily removed in vacuo.



        'There is what appears to be a 2D COSY spectrum among the materials you provided,
but it is dated 26 May 1989 - before [the first graduate student] performed the reaction on [ ]
June 1989 to make [ 1. There is no NOESY spectrum."
       10"~resumably,  [the first graduate student] used as starting material for [        1
reaction 0.12 g of the 0.15 g of [ ] that he had just purified (see [XXI-2-108, NMR [XW-2-
106-3, and [XXI-2-111). The product from this reaction, [ 1, was apparently purified by [the
undergraduate], who isolated from column chromatography fractions 46-48 27.1 mg of [       ]
shown by 'H and 13C NMR to be quite pure (see [XXI-1-61, 'H NMR [XXI-1-61-1, and
13CNMR [XXI-1-62-1). That was apparently added to the 34.1 mg of material from fractions
49-55, which according to the TLC should have been even more pure than fractions 46-48), to
give 61.2 mg of [ 1. [the second graduate student] apparently then carried out the [       1
on 30 mg of this [ 1, and he pu*ed the product [ ] by PTLC (see [XXI-1-53)."
"8.    On page 10 of his letter, [the subject] explained the [          ] and yield calculations
       for [ ] as follows:

              "'[XXI-102 (0.1 g) was [                      ] to give 73 mg (88 % yield)
              of [                          1. [         ] was measured on Fraction 13-
              15 (56 mg with NMR [XXI-5-102-6) in which its NMR spectrum showed
              slight impurities and ethyl acetate solvent, responsible for a lower value
              than the reported value of [
                      ] . . . . [The postdoc] told me that if an allowance was given for
              the impurity, the [                  ] would be around [ ] and the yield
                         -
              would be 80% (instead of 88 %). '

       "On page 7 of his letter, [the subject] noted that [the postdoc] had [             Ia
       sample 'containing slight impurity and solvent', even though a 'slightly purer' sample
       was available which 'was not used in measuring [                1'.
       "The calculations employed to arrive at the figures reported do not appear in the
       notebook. Please address the propriety of this method of estimating [                1
       and yield, particularly when they are to be reported in a journal publication or grant
       proposal, particularly when much of the contamination is easily-removable volatile
       solvent, and particularly when a purer sample is available.11"




       ""One page 2 of its report, your inquiry committee went through an elaborate process to
estimate that the amount of ethyl acetate shown in NMR [XXI-5-106-2could, '[alssuming a 50%
error' in the measurements, account for 'over one-half of the 4.4 mg contamination cited by [the
subject and the postdoc] present in the original 20 mg sample of [ ] used in the [             1
determination.' We do not see how this estimation allows you to evaluate whether [the subject]
was just$ied with the data available to hjm in reporting to NSF that he had obtained an 80%
yield of [
